Hogan Lovells
Lovells US
US LLP
LLP
Hogan
Columbia Square
Columbia
Square
555
Thirteenth Street,
NW
555 Thirteenth
Street, NW
Washington, DC
DC 20004
20004
Washington,
T +1
T
+1 202
202 637
637 5600
5600
F
F +1
+1 202
202 637
637 5910
5910
www.hoganlovells.com
www.hoganlovells.com

Hogan
Lovells
March 12, 2021
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Babcock v. Saul, No. 20-480

Dear Mr. Harris:
We represent the Petitioner in the above-captioned case. Having conferred
with opposing counsel, we write to respectfully request a 35-day briefing extension
under Rule 30.4 for both parties’
parties' principal briefs on the merits, which would result in
the following schedule:
Petitioner’s Brief on the Merits and the Joint Appendix
May 20, 2021 for Petitioner's
Respondent’s Brief on the Merits
July 26, 2021 for Respondent's
Respondent consents to this request. This requested extension would help
counsel manage other matters pending before this Court and other courts. This
schedule would allow the Court to hear this case any time during the October sitting.
Respectfully submitted,

/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel of Record for
for Petitioner
David Bryon Babcock
in No. 20-480
cc:

Elizabeth B. Prelogar, Counsel of Record for Respondent

Hogan Lovells US LLP is
is a
a limited
limited liability
liability partnership
partnership registered
registered in
in the
the District
District of
of Columbia.
Columbia. "Hogan
“Hogan Lovells"
Lovells” is
is an
an international
international legal
legal practice
practice that
that includes
includes Hogan
Hogan Lovells
Lovells US
US LLP
LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels
Brussels Colorado
Colorado Springs
Springs Denver
Denver Dubai
Dubai Dusseldorf
Dusseldorf
Frankfurt Hamburg
Hanoi Ho
Ho Chi
Chi Minh
Minh City
City Hong
Hong Kong
Kong Houston
Houston Johannesburg
Johannesburg London
London Los
Los Angeles
Angeles Luxembourg
Luxembourg Madrid
Madrid Mexico
Mexico City
City Miami
Miami Milan
Milan Minneapolis
Minneapolis Monterrey
Monterrey
Frankfurt
Hamburg Hanoi
Moscow Munich
Munich New
New York
York Northern
Northern Virginia
Virginia Paris
Paris Perth
Perth Philadelphia
Philadelphia Rome
Rome San
San Francisco
Francisco São
Paulo Shanghai
Shanghai Silicon
Silicon Valley
Valley Singapore
Singapore Sydney
Sydney Tokyo
Tokyo Warsaw
Warsaw
Moscow
sao Paulo
Washington, D.C.
D.C. Associated
Associated Offices:
Offices: Budapest
Budapest Jakarta
Jakarta Riyadh
Riyadh Shanghai
Shanghai FTZ
FTZ Ulaanbaatar
Ulaanbaatar Zagreb.
Zagreb. Business
Business Service
Service Centers:
Centers: Johannesburg
Johannesburg Louisville.
Louisville. Legal
Legal Services
Services
Washington,
Center: Berlin. For more information see www.hoganlovells.com

